No. 20-1747
IN THE

Supreme Court of the United States
ERICH G. SORENSON,
Petitioner,
v.
COMMONWEALTH OF MASSACHUSETTS,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
MASSACHUSETTS APPEALS COURT
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Alan E. Schoenfeld, a member of
the bar of this Court, certify that the accompanying Brief for Amici Curiae The Charles
Hamilton Houston Institute for Race and Justice, The Fred T. Korematsu Center for
Law and Equality, and The NYU Center on Race, Inequality, and the Law In Support
of Petitioner contains 5,663 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
Executed on July 16, 2021.

ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

